  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


  MISSOURI IMPROPERLY CLAIMED
   FEDERAL REIMBURSEMENT FOR
MOST REVIEWED MEDICAID INPATIENT
PSYCHIATRIC HOSPITAL SERVICE AND
DISPROPORTIONATE SHARE HOSPITAL
     PAYMENTS TO HAWTHORN
 CHILDREN’S PSYCHIATRIC HOSPITAL

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          June 2013
                                                        A-05-12-00050
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Missouri Medicaid Program

The Missouri Department of Social Services (State agency) administers the Missouri Medicaid
program according to the CMS-approved State plan. The State agency makes Medicaid
payments to eligible hospitals and claims Federal reimbursement for a portion of such payments.
During the audit period, the Missouri Department of Mental Health operated nine State-owned
psychiatric hospitals that provided inpatient treatment for mental health conditions. Hawthorn
Children’s Psychiatric Hospital (Hawthorn), an institution for mental diseases and one of the
nine State-owned psychiatric hospitals, provided inpatient psychiatric services primarily to
children and youth. During the audit period, July 1, 2005, through June 30, 2010, Hawthorn
participated in the Medicaid, but not the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service and
disproportionate share hospital (DSH) payments to a psychiatric hospital, the hospital’s inpatient
services must meet the Federal definition of such services. This definition requires the provider
to demonstrate compliance with the basic Medicare Conditions of Participation (CoP) generally
applicable to all hospitals and two special Medicare CoP applicable to psychiatric hospitals. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self-
assessment and performance improvement, and service availability. The special Medicare CoP
specify staffing and medical record requirements.

A psychiatric hospital must undergo review by qualified health care professionals to demonstrate
compliance with the basic and special Medicare CoP. Such review provides CMS with
reasonable assurance that participating facilities are improving the health and protecting the
safety of Medicaid beneficiaries. For periods in which a psychiatric hospital does not
demonstrate compliance with the basic and special Medicare CoP, all Medicaid inpatient
psychiatric service and DSH payments received from the State agency are ineligible for Federal
reimbursement.




                                                 i
CMS made a technical error when it issued Medicare transplant center CoP regulations in 2007.
Effective June 28, 2007, it inadvertently omitted certain Medicare psychiatric hospital CoP
regulations that were relevant to this audit. CMS formally reinstated the omitted regulations
effective October 26, 2007. Despite the omission, CMS’s implementing guidance remained in
effect from June 28 through October 25, 2007 (the regulatory gap period).

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
Medicaid inpatient psychiatric service and DSH payments made to Hawthorn in accordance with
certain Federal requirements for inpatient psychiatric hospital services.

SUMMARY OF FINDING

Most State agency claims for Federal reimbursement for Medicaid inpatient psychiatric service
and DSH payments made to Hawthorn were not in accordance with Federal requirements for
inpatient psychiatric hospital services because Hawthorn did not demonstrate compliance with
the special Medicare CoP during the audit period. Of the $22,722,265 claimed for that period,
the amount of $21,375,765 that was for claims with dates of service outside the regulatory gap
period was not allowable. We have not provided an opinion on the allowability of State agency
claims for the remaining $1,346,500, which was for claims with dates of service during the
regulatory gap period. The State agency claimed the $22,722,265 because it believed that
Hawthorn had met all requirements to be eligible for Medicaid inpatient psychiatric service and
DSH payments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $21,375,765 to the Federal Government for its share of Medicaid inpatient
       psychiatric service and DSH payments made to Hawthorn for claims with dates of service
       outside the regulatory gap period,

   •   work with CMS to determine whether the State agency should refund an additional
       $1,346,500 to the Federal Government for its share of payments made to Hawthorn for
       claims with dates of service during the regulatory gap period,

   •   identify and refund the Federal share of any additional payments made to Hawthorn for
       claims with dates of service after the audit period if neither the State agency nor
       Hawthorn can demonstrate the hospital’s compliance with Federal requirements for
       inpatient psychiatric hospital services, and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service and DSH
       payments to psychiatric hospitals is claimed only if those hospitals can demonstrate
       compliance with the special Medicare CoP.



                                               ii
STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not concur with our first and
second recommendations and did not comment on our third and fourth recommendations. The
State agency did not concur with our first and second recommendations because it believes that
Hawthorn did not have to meet the special Medicare CoP to make the State agency’s claims for
Federal reimbursement allowable.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Federal Medicaid requirements mandate that inpatient service and
DSH payments to psychiatric hospitals are eligible for Federal reimbursement only if they
demonstrate compliance with the special Medicare CoP. Hawthorn did not demonstrate such
compliance during the audit period.




                                               iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Missouri Medicaid Program ............................................................................................... 1
       Federal Requirements for Inpatient Psychiatric Hospital Services..................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 3
       Objective ............................................................................................................................. 3
       Scope ................................................................................................................................... 3
       Methodology ....................................................................................................................... 3

FINDING AND RECOMMENDATIONS .................................................................................. 4

     FEDERAL REQUIREMENTS ................................................................................................. 4

     HAWTHORN DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
     MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD ......... 4

     RECOMMENDATIONS .......................................................................................................... 5

     STATE AGENCY COMMENTS ............................................................................................. 6

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6
       Inpatient Psychiatric Service Payments .............................................................................. 7
       Disproportionate Share Hospital Payments ........................................................................ 8

APPENDIX

     STATE AGENCY COMMENTS




                                                                       iv
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Missouri Medicaid Program

The Missouri Department of Social Services (State agency) administers the Missouri Medicaid
program according to the CMS-approved State plan. The State agency makes Medicaid
payments to eligible hospitals and claims Federal reimbursement for a portion of such payments.
During the audit period, the Missouri Department of Mental Health operated nine State-owned
psychiatric hospitals that provided inpatient treatment for mental health conditions. Hawthorn
Children’s Psychiatric Hospital (Hawthorn), an institution for mental diseases (IMD) and one of
the nine State-owned psychiatric hospitals, provided inpatient psychiatric services primarily to
children and youth. During the audit period, July 1, 2005, through June 30, 2010, Hawthorn
participated in the Medicaid, but not the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service and
disproportionate share hospital (DSH) 1 payments to a psychiatric hospital, the hospital’s
inpatient services must meet the Federal definition of such services. This definition requires the
provider to demonstrate compliance with the basic Medicare Conditions of Participation (CoP)
generally applicable to all hospitals and two special Medicare CoP applicable to psychiatric
hospitals.

Medicaid Payments

Pursuant to § 1903(a)(1) of the Act, States may claim Federal reimbursement for a portion of
their Medicaid medical assistance and DSH payments. For patients in IMDs, a category that
generally includes psychiatric hospitals, medical assistance includes inpatient hospital services
for individuals aged 65 or older but excludes care or services for younger individuals except for


1
  Pursuant to § 1923 of the Act, certain hospitals are eligible for special payments, known as DSH payments. To
receive DSH payments, hospitals must serve a disproportionately large share of low-income and/or uninsured
patients and meet other Federal and State requirements. The payments compensate the hospitals for their
uncompensated costs of providing hospital services to such patients.


                                                        1
inpatient psychiatric hospital services for individuals under age 21 (§ 1905(a) of the Act). 2 In
addition, if a certain percentage of a psychiatric hospital’s inpatient days are attributable to
Medicaid-eligible patients, the hospital may be entitled to DSH payments pursuant to § 1923 of
the Act.

Definition of Medicaid Inpatient Psychiatric Hospital Services

The Federal definition of Medicaid inpatient psychiatric hospital services requires the hospitals
providing such services to comply with Medicare CoP, including two special Medicare CoP.
The basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights,
self-assessment and performance improvement, and service availability (42 CFR §§ 482.1–
482.23 and 42 CFR §§ 482.25–482.57). The special Medicare CoP specify staffing and medical
record requirements (42 CFR §§ 482.61 and 482.62).

In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS corrected a technical error that it had made when it
issued Medicare transplant center CoP regulations that became effective June 28, 2007. When it
amended 42 CFR part 482, subpart E, in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS inadvertently
omitted 42 CFR §§ 482.60–482.62, which are Medicare psychiatric hospital CoP regulations
relevant to this audit. The correction reinstated the omitted regulations effective
October 26, 2007. Despite the omission, CMS’s implementing guidance (e.g., manuals)
remained in effect from June 28 through October 25, 2007 (the regulatory gap period).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, a psychiatric hospital must
undergo review by qualified health care professionals. Medicare-participating psychiatric
hospitals are generally deemed to meet both the basic and special Medicare CoP for Medicaid
purposes (42 CFR § 488.5(b)). During our audit period, psychiatric hospitals that did not
participate in Medicare could generally demonstrate compliance with the basic Medicare CoP 3
by being accredited as a hospital by CMS-approved organizations, such as the Joint
Commission.4 However, during that time, such accreditation did not demonstrate compliance
with the special Medicare CoP (42 CFR § 488.5(a)). 5 According to the CMS State Operations
Manual, § 2718A, psychiatric hospitals had to be specially surveyed by qualified psychiatric
health care professionals to demonstrate compliance with the special Medicare CoP.
Accreditation or survey by qualified health care professionals provides CMS with reasonable


2
 Pursuant to 42 CFR § 441.151(a)(3), medical assistance also includes necessary inpatient psychiatric hospital
services for individuals aged 21 if they were receiving such services immediately before reaching age 21.
3
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
4
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).
5
 After the audit period (July 1, 2005, through June 30, 2010), CMS granted the Joint Commission deeming
authority with respect to the two special Medicare CoP (76 Fed. Reg. 10598 (Feb. 25, 2011)).


                                                         2
assurance that participating facilities are improving the health and protecting the safety of
Medicaid beneficiaries.

For periods in which a psychiatric hospital does not demonstrate compliance with the basic and
special Medicare CoP, all Medicaid inpatient psychiatric service and DSH payments received
from the State agency are ineligible for Federal reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
Medicaid inpatient psychiatric service and DSH payments made to Hawthorn in accordance with
certain Federal requirements for inpatient psychiatric hospital services.

Scope

We reviewed Hawthorn’s compliance for the period of July 1, 2005, through June 30, 2010, with
certain Federal requirements for inpatient psychiatric hospital services. We identified
$22,722,265 in Federal reimbursement for Medicaid inpatient psychiatric service and DSH
payments made to Hawthorn for claims with dates of service during the audit period. We limited
our review of the State agency’s internal controls to those significant to the objective of our
audit.

We performed our fieldwork from March through June 2012.

Methodology

To accomplish our objective, we:

   •    examined Federal and State Medicaid requirements for inpatient psychiatric hospital
        services,

   •    identified periods for which neither the State agency nor Hawthorn could demonstrate
        Hawthorn’s compliance with certain Federal requirements for inpatient psychiatric
        hospital services,

   •    held discussions with officials of the State agency and reviewed its Medicaid payment
        information, and

   •    determined the amount of Federal reimbursement for Medicaid inpatient psychiatric
        service and DSH payments made to Hawthorn for claims with dates of service during
        periods when it did not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


                                                 3
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                  FINDING AND RECOMMENDATIONS

Most State agency claims for Federal reimbursement for Medicaid inpatient psychiatric service
and DSH payments made to Hawthorn were not in accordance with Federal requirements for
inpatient psychiatric hospital services because Hawthorn did not demonstrate compliance with
the special Medicare CoP during the audit period. Of the $22,722,265 claimed for that period,
the amount of $21,375,765 that was for claims with dates of service outside the regulatory gap
period was not allowable. We have not provided an opinion on the allowability of State agency
claims for the remaining $1,346,500, which was for claims with dates of service during the
regulatory gap period. The State agency claimed the $22,722,265 because it believed that
Hawthorn had met all requirements to be eligible for Medicaid inpatient psychiatric service and
DSH payments.

FEDERAL REQUIREMENTS

Pursuant to §§ 1905(h)(1) and 1861(f) of the Act, if inpatient psychiatric services furnished to
individuals under age 21 are provided in a psychiatric hospital, the psychiatric hospital must
meet the basic and special Medicare CoP. Regulations in 42 CFR § 482.60 implement the
requirements in 1861(f) 6 and mandate that such psychiatric hospitals meet the basic Medicare
CoP (42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57) applicable to all hospitals and
two special Medicare CoP applicable to psychiatric hospitals (42 CFR §§ 482.61 and 482.62).
Psychiatric hospitals that provide Medicaid inpatient psychiatric services must meet the same
Medicare CoP for their DSH payments to be eligible for Federal reimbursement.

The Medicare CoP for psychiatric hospitals are minimum standards that provide a basis for
improving quality of care and protecting the health and safety of Medicaid beneficiaries. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self-
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP require that psychiatric
hospitals “have adequate numbers of qualified professional and supportive staff to evaluate
patients, formulate written, individualized comprehensive treatment plans, provide active
treatment measures, and engage in discharge planning” (42 CFR § 482.62). The special medical
record Medicare CoP require that “medical records maintained by a psychiatric hospital …
permit determination of the degree and intensity of the treatment provided to individuals who are
furnished services in the institution” (42 CFR § 482.61).

HAWTHORN DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD

Hawthorn did not demonstrate compliance with the special Medicare CoP during the audit
period. Hawthorn did not participate in Medicare but was accredited by the Joint Commission as
6
    Regulations in 42 CFR § 482.1(a)(2) cite § 1861(f) of the Act as a statutory basis for 42 CFR pt. 482.


                                                            4
a hospital during the audit period. That accreditation generally demonstrated Hawthorn’s
compliance with the basic Medicare CoP. However, Hawthorn was never specially surveyed to
demonstrate compliance with the special Medicare CoP.

Of the $22,722,265 in Federal reimbursement claimed for Medicaid inpatient psychiatric service
and DSH payments made to Hawthorn for claims with dates of service during the audit period,
the State agency improperly claimed $21,375,765 for claims with dates of service outside the
regulatory gap period. The $21,375,765 included Federal reimbursement of $11,812,084 for
improperly claimed service payments and $9,563,681 for improperly claimed DSH payments.
We have set aside for further review by CMS and the State agency $1,346,500 in Federal
reimbursement for payments made to Hawthorn for claims with dates of service during the
regulatory gap period. 7 The table below shows Federal reimbursement by payment type.

                            Federal Reimbursement by Payment Type


                        Payment Improperly
                         Type    Claimed                 Set Aside      Total


                        Service      $11,812,084          $766,098 $12,578,182


                        DSH             9,563,681          580,402    10,144,083


                           Total     $21,375,765 $1,346,500 $22,722,265


The State agency claimed the $22,722,265 in Federal reimbursement for claims with dates of
service during the audit period because it believed that Hawthorn had met all requirements to be
eligible for Medicaid inpatient psychiatric service and DSH payments.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $21,375,765 to the Federal Government for its share of Medicaid inpatient
        psychiatric service and DSH payments made to Hawthorn for claims with dates of service
        outside the regulatory gap period,

    •   work with CMS to determine whether the State agency should refund an additional
        $1,346,500 to the Federal Government for its share of payments made to Hawthorn for
        claims with dates of service during the regulatory gap period,
7
 Despite CMS’s inadvertent omission of 42 CFR §§ 482.60–482.62 in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS’s
implementing guidance remained in effect during this period.


                                                     5
   •   identify and refund the Federal share of any additional payments made to Hawthorn for
       claims with dates of service after the audit period if neither the State agency nor
       Hawthorn can demonstrate the hospital’s compliance with Federal requirements for
       inpatient psychiatric hospital services, and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service and DSH
       payments to psychiatric hospitals is claimed only if those hospitals can demonstrate
       compliance with the special Medicare CoP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our first and
second recommendations and did not comment on our third and fourth recommendations. The
State agency did not concur with our first and second recommendations because it believes that
Hawthorn did not have to meet the special Medicare CoP to make the State agency’s claims for
Federal reimbursement allowable.

The State agency gave three reasons for believing that Hawthorn did not have to meet the special
Medicare CoP to make the DSH payments it received eligible for Federal reimbursement. First,
the State agency indicated that no CMS regulation or guidance makes DSH payments contingent
on meeting the special Medicare CoP. Second, the State agency indicated that § 1923(h) of the
Act permits DSH payments to a wider range of mental health facilities than just IMDs. Finally,
the State agency indicated that CMS did not provide adequate notice that Hawthorn was required
to meet the special Medicare CoP.

The State agency next gave two reasons for believing that Hawthorn did not have to meet the
special Medicare CoP to make the inpatient psychiatric service payments it received eligible for
Federal reimbursement. First, the State agency indicated that the regulations for inpatient
psychiatric services to individuals under age 21 do not require psychiatric hospitals to meet the
special Medicare CoP; such hospitals need only accreditation by the Joint Commission. Second,
it cited New Jersey Department of Human Services, Departmental Appeals Board (DAB)
No. 513 (1984), in which the DAB concluded that a facility’s Joint Commission accreditation
was generally adequate to make its inpatient psychiatric services to individuals under age 21
eligible for Federal reimbursement.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. In our response to the State agency’s comments, we first address its
comments regarding inpatient psychiatric service payments and then address its comments
regarding DSH payments. Federal Medicaid requirements mandate that inpatient service and
DSH payments to psychiatric hospitals are eligible for Federal reimbursement only if they
demonstrate compliance with the special Medicare CoP. Hawthorn did not demonstrate such
compliance during the audit period.


                                                6
Inpatient Psychiatric Service Payments

Regarding inpatient psychiatric service payments, the State agency believes that psychiatric
hospitals that provide inpatient services to individuals under age 21 do not have to meet the
special Medicare CoP; we disagree. Section 1905(h)(1) of the Act states, “[T]he term ‘inpatient
psychiatric hospital services for individuals under age 21’ includes only … inpatient services
which are provided in an institution … which is a psychiatric hospital as defined in section
1861(f).” 8 Section 1861(f) of the Act defines a psychiatric hospital and requires such facilities to
meet both the basic and special Medicare CoP. These requirements are implemented in
42 CFR § 482.60. 9 Therefore, psychiatric hospitals like Hawthorn are required to meet the basic
and special Medicare CoP to make the inpatient service payments they receive for individuals
under age 21 eligible for Federal reimbursement.

The State agency quoted the primary implementing regulations for inpatient psychiatric services
to individuals under age 21 that were in effect during our audit period (42 CFR §§ 440.160 and
441.151). Those regulations permitted such services to be provided in psychiatric hospitals,
which were required to meet the basic and special Medicare CoP (§ 1861(f) of the Act;
42 CFR § 482.60), and added a Joint Commission accreditation requirement. 10, 11

The State agency also cited New Jersey Department of Human Services, DAB No. 513 (1984), in
support of its belief that facilities that provide inpatient psychiatric services to individuals under
age 21 do not have to meet the special Medicare CoP; however, that DAB decision was based on
statutes that were subsequently amended. In a decision dated April 18, 1984, the DAB
concluded that a facility’s Joint Commission accreditation was generally adequate to make its
inpatient psychiatric services to individuals under age 21 eligible for Federal reimbursement.
The DAB’s conclusion was based, in part, on § 1905(h)(1) of the Act, which, on April 18, 1984,
stated, “[T]he term ‘inpatient psychiatric hospital services for individuals under age 21’ includes
only … inpatient services which are provided in an institution which is accredited as a
psychiatric hospital by the Joint Commission.” Effective July 18, 1984, § 2340(b) of the Deficit
Reduction Act of 1984, P.L. No. 98-369, changed § 1905(h)(1) to state that “the term ‘inpatient
psychiatric hospital services for individuals under age 21’ includes only … inpatient services
which are provided in an institution … which is a psychiatric hospital as defined in section
1861(f).” Therefore, the DAB’s conclusion no longer applies because of statutory changes that


8
 Section 1905(h)(1) of the Act also permits such services to be provided “in another inpatient setting that the
Secretary has specified in regulations,” such as psychiatric residential treatment facilities. However, such settings
are irrelevant to this audit because Hawthorn was a psychiatric hospital throughout the audit period.
9
    Regulations in 42 CFR § 482.1(a)(2) cite § 1861(f) of the Act as a statutory basis for 42 CFR pt. 482.
10
  Effective October 1, 2010, CMS changed 42 CFR §§ 440.160 and 441.151 to remove the Joint Commission
accreditation requirement, to reiterate the statutory requirement that psychiatric hospitals comply with the basic and
special Medicare CoP, and to add information about how to demonstrate such compliance (75 Fed. Reg. 50041
(Aug. 16, 2010)).
11
  Hawthorn met the Joint Commission accreditation requirement throughout the audit period, but its hospital
accreditation generally demonstrated compliance with only the basic Medicare CoP. Such accreditation could not
demonstrate compliance with the special Medicare CoP during the audit period (42 CFR § 488.5(a)).


                                                            7
require psychiatric hospitals providing such services to comply with the special Medicare CoP in
§§ 1861(f)(3) and (4) of the Act.

Disproportionate Share Hospital Payments

Regarding DSH payments, the State agency first indicated that no CMS regulation or guidance
makes DSH payments contingent on meeting the special Medicare CoP; we disagree. The State
agency also indicated that the DSH statute (§ 1923 of the Act) and certain regulations
(42 CFR §§ 440.10(a)(3)(iii) and 440.20(a)(3)(ii)) require that a facility meet only the basic
Medicare CoP. Although that may be true for a hospital, as discussed above, § 1861(f) of the
Act requires psychiatric hospitals to meet the basic and special Medicare CoP. Hawthorn did not
demonstrate compliance with the special Medicare CoP during the audit period.

The State agency then indicated that § 1923(h) of the Act permits DSH payments to a wider
range of mental health facilities than just IMDs; we agree but consider the comment irrelevant.
Although we agree that DSH payments are permitted to be made to a wider range of mental
health facilities than just IMDs, the comment is irrelevant because Hawthorn was both a
psychiatric hospital and an IMD that provided “inpatient psychiatric hospital services for
individuals under age 21” during our audit period. Therefore, it was required to demonstrate
compliance with the special Medicare CoP (§§ 1861(f)(3) and (4) of the Act;
42 CFR §§ 482.60(c) and (d)).

Finally, the State agency indicated that CMS did not provide adequate notice that Hawthorn was
required to meet the special Medicare CoP; we disagree. The statutes that required Hawthorn to
meet the special Medicare CoP were in effect prior to the beginning of our audit period.
Moreover, CMS’s State Operations Manual, § 2718A, stated, “To participate in Medicare and
Medicaid, a psychiatric hospital must meet the special medical records and special staffing
requirements.” Hawthorn was a psychiatric hospital but did not demonstrate compliance with
the special Medicare CoP, which specified the medical record and staffing requirements.




                                                8
APPENDIX
                                                                                                                                               Page 1 of 4


                          APPENDIX: STATE AGENCY COMMENTS



'r '	•
'\f~--
    ~      f	 ·/    .I   1
                          '   , , , 11, 	   1
                                                ·~({"/   (    /
                                                                  ,r


  SOCIAL SERVICES
                         .. ( r{,     J.t,;/{'fj_r'   ,nJ.    (I..     Slf '~•r•.J;'l .
                                                                                   .IERI;MIAII W. (JAY) N IXON, GOVERNOR • /\I.AN 0. FREEMAN, D IRECTOR




                                                                           February 13, 2013


   Sheri L. fo'ulcher
   Regional Inspector General for Audit Services
   Office ofAudit Services, Region V
   233 North Michigan. Suite 1360
   Chicago, IL 60601

   Re: OIG Report Number: A-05-12-00050

   Dear Ms. Fulcher:

   The Missouri Department of Social Services ("DSS") appreciates the opportunity to comment on
   the Office of Inspector General ' s ("0 IG") draft report entitled Missouri Improperly Claimed
   Federal Reimbursement/or Most Reviewed Medicaid lnpalient Psychiatric Hospital Services
   and Disproportionate Share Hvspilal Payments to Haw/horn Children 's P5ychiatric Hospital
   r·audit report'').

   DSS strongly d isagrees with the OIG's recommendation that it refund $2 1,374,765 to the federal
   government for Medicaid inpat ient and disproportionate share hospital ("DSH'") payments made
   to Hawthorn Children's Psychiatric Hospital ("Hawthom"). Similarly, DSS believes that the
   $1.346,500 it claimed {(,r payments made to Hawthorn with dates of service during the
   "regu latory gap period,' ' between June 28 and October 25. 2007, are likewise allowable, and
   therefore there is no reason to work with CMS to determ ine whether DSS must refund these
   payments.

   I. 	      Satisfying Medicare' s Special Conditions of Participation is Not Required to Receive
             DSH Payments

   The OIG recommend s that DSS refund $9.563,681 in federal reimbursement for DSH payments
   made to Hawthorn. T his recommendation is based on the OIG's assumption that "[p]sychiatric
   hospi tals that provide Medicaid inpatient psychiat ric services must meet the same Medicare CoP
   [conditions of participation] tor their DSH paym ents to be eligible fo r federal re imbursement. "
   A udit Report. at 4.




                                                                                 R F.i.,\Y MISSOURI
                                                                       F()R l l EARIN(j ANDSI'I:£0-IIMI'AIRED
   IX': 4690S44-3
                                                             1-800-735·2466 VOICli • 1·800-735-2966 TEXT PIIDNE
                                                                                                      Page 2 of 4




The 010 is incorrect. To date. neither CMS regulations nor its guidance make meeting
Medicare's special conditions of participation a condition of receiving DSH payments. There is
no statute, regulation , or CMS guidance document advising that a psychiatric facility must be
Medicare certilied in order to be eligible to receive fede ral Medicaid DSH payments. Thus,
absent contrary instruction from CMS , there is no reason to assume that institutions for mental
diseases must satisfy Medicare special conditions of participation for psychiatric hospitals,
particularly for a hospital like Hawthorn that exclusively serves cltildren and therefore has no
reason to satisfy these supplemental conditions required for Medicare participation.

In fact , the DSH statute and regulations lead to just the opposite conclusion --that Medicare· s
special conditions of participation are not required for facilities to receive DSH payments.
Section 1923 of the Social Security Act ("SSA") scLs forth the federal requirements tor States in
making DSH payments. Under this section, States may designate hospitals as DSH hospitals as
long as they have a Medicaid inpatient utilization rate (MIUR) of at least one percent. SSA, §
1923(a)(4) and (d) (3). These payments off.~et uncompensated costs of providing " hospital
services" to Medicaid-eligible or uninsured patients. See SSA, § 1923(g)( I )(A). Federal
regulations define "inpatient hospital services" and " outpatient hospital services" as services that
are " furnished in an institution that ... [meets) the requirements for participation in Medicare as
a hospital. " 42 C.F.R. §§ 440.1 O(a)(3)(iii); 440.20(a)(3)(ii). Hospitals are deemed to meet the
requirements for participation in Medicare if they have been accredited by a national
accreditation organization. such as JCAHO. See SSA §1865; 42 C.F.R. § 488.5. Thus, under
CMS regulations, a hospital that has been accredited by JCAHO is providing "hospital services"
and should be eligible for a DSH payment. At a ll times during the OIG ' s audit period, Hawthorn
was accredited by JCAHO.

Section 1923(h) specifically authorizes DSH payments for "institutions for mental disease or
other mental health facilities. " /d. § 1923(h)(l ). It is important to note that the statute does not
refer to '"psychiatric hospitals," a term that is used in CMS regulati ons to refer to the facilities
that must satisfy the spec ial conditions ofpanicipation to participate in Medicare. See 42 C.F.R.
§ 482.60-62 . Rather. the statute authorizes DSH payments for " institutions for mental disease or
other mental healthfacililies." indicating that Congress intended DSH payments to be payable to
a broader range of facilities than merely those that qualify a~ an institution tor mental disease
(IMD).

Indeed, there is only one reference in Medicaid rules to the Medicare special conditions of
participation for psychiatric hospitals. This reference appears in Section 440. I 40 of the Code of
Federal Regulations, and this section , by title. is applicable only to " inpatient hospital services ..
. for individuals age 65 or older in institutions for mental diseases." Hawthorn is a facility that
serves only children under the age of21. It does not serve individuals over age 65. Accordingly,
this regulation, the only Medicaid regulation that incorporates the Medicare spec.ial conditions of
participation. does not affect Hav.rthorn's eligibility to receive DSH payments.

The OIG Report cites no authority for its assumption that Hawthorn must meet the same special
conditions of participation as psychiatric hospitals that participate in Medicare. Thus, for this
assumption to be the basis of a recommendation that DSS refund federal funds, CMS must, at the
                                                                                                  Page 3 of 4




least, have provided States adequate notice of these requirements. To date. CMS has not done
so. In fact. even the most recent CMS guidance on this issue does not articulate the position
advanced by 010. CMS recently issued guidance instructing Stales how to audit DSll payments
for costs made to institutions for mental diseases, including reports made for individuals between
the ages of22 and 64. See 73 Fed. Reg. 77.094,77,929 (Dec. 19, 2008). Nowhere in this recent
guidance did CMS address this issue.

13ecause statute and regu lations do not require institutions for mental diseases that do not
participate in Medicare to meet Medicare's special requirements for psychiatric hospitals for
those under age 65 to receive Medicaid DSH payments, there is no basis for DSS to refund the
$9.563.681 it claimed in DSH payments for Hawthorn Children ' s Psychiatric Hospital.

II.    Medicare' s Special Conditions of Participation for Psychiatric Hospitals Does Not Apply
       to Children ' s Hospitals

The 010 also recommends that DSS refund $11.8 million to the federal government for its share
of Medicaid inpatient psychiatric services made to Hawthorn during the audit period on the basis
that ''if inpatient psychiatric servict:s furnished to individuals under age 21 are provided in a
psychiatric hospital. the psychiatric hospital must meet the basic and special Medicare CoP
requirements." Audit Report., at 4.

This statement is incoJTect. The Medicare special conditions of participation f()f psychiatric
hospitals are inapplicable to institutions. like Hawthorn, that serve only children under the age of
2 I. As described above, the regulations governing inpatient psychiatric services for individuals
age 65 or older expressly require a hospital to meet the special conditions of participation at 42
C.F.R. § 482.60. See 42 C.F.R. § 440.140(a)( I). By contrast, the regulations for inpatient
psycluatric services for individuals under age 21 require that the services must be provided by "a
psychiatric hospital or an inpatient psychiatric program in a hospital , accredited by the Joint
Commission on Accreditation of Healthcare Organizations fJCAHOl" 42 C.F.R. § 440.160; see
also 42 C.F.R. § 441.151 (a)(2)(i) ("[i]npaticnt psychiatric services for individuals under age 2 I
must be: . . . [p]rovided by . . . [a) psychiatric hospital or an inpatient psychiatric program in a
hospital, accredited by [JCAHO]"). As described above, at all times during the relevant audit
period. Hawthorn had accreditation from JCAHO.

In New Jersey Department t~( Human Services. DAB No. 513 ( 1984), the Departmental Appeals
Board confirmed that there a re "distinct statutory requirements" for the two groups and that,
unlike the over-65 category, "for Medicaid individuals under age 21. JCAH[O] accreditation
renders a facility or program eligible to receive FFP so long as the services are in compliance
with 42 C. F.R. Part 441, Subpart D and the services are provided under the direction of a
physician." DAB No. 5 I 3 at 6. 3.

Therefore, because the regulations at 42 C.f.R. Sections 440.160(b) and 44 1.151 (a)(2) provide
that a facility need only be accredited by JCAHO or an equivalent organization in order to
qualify as a Medicaid provider of inpatient psychiatric services for children under age 21, the
OIO's recommendation that DSS refund the $11.8 million it claimed in federal funding for direct
services provided at Hawthorn during the audit period should be rejected.
                                                                                                  Page4of4




Ill. 	   There is no reason to resolve the allowability of federal funds claimed during the
         regulatory gap peri()d .

The same reasoning applies during the "regulatory gap" period during which the Medicare
psychiatric hospital conditions of participation regulations were omitted from the federal register.
Because these regulations were inapplicable to Hawthorn during the time they were in effect,
there is no reason why they would apply during the four-month period when they did not appear
in federal register. Accordingly, there is no reason for DSS to work with CMS to determine
whether DSS sh()u]d refund the $1,346,500 claimed for its share of payments to Hawthorn during
this time.

Thank you for the opportunity to review the draft audit report and provide this response. We
appreciate your consi deration of the informat ion provided in this letter. If you have any
questions about our response, please contact Jennifer Tidball at (573)751-7533 .




AOF:JC:bsb
